                                                           Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General



Subject:   INFORMATION: Notification of Audit—Network                  Date:    January 25, 2005
           Infrastructure Security
           Federal Railroad Administration
           Project Number 05F3003F000

  From:    Theodore P. Alves                                         Reply to
                                                                     Attn of:   JA-20
           Assistant Inspector General for Financial and
            Information Technology

    To:    Acting Federal Railroad Administrator

           The Office of Inspector General will perform an audit of the Federal Railroad
           Administration (FRA) network infrastructure, which is critical to both the
           Department of Transportation (DOT) and FRA’s mission. FRA has direct Internet
           connections allowing the public to access the DOT network, and remote network
           entry points allowing state inspectors to access FRA systems. This infrastructure,
           if not properly configured, could put FRA and the rest of DOT systems at risk.
           The audit will be conducted at FRA Headquarters in Washington, D.C., and
           regional offices at Cambridge, MA and Vancouver, WA.

           Our objective is to determine whether FRA network infrastructure is adequately
           secured to support both DOT and FRA missions. Specifically, we will determine
           if FRA (1) Internet entry points are adequately protected to prevent cyber attacks,
           (2) remote network entry points used by FRA employees and state inspectors are
           properly secured to prevent unauthorized access, and (3) network computers are
           properly configured and monitored to reduce risks of attacks.

           We will contact your audit liaison to establish an entrance conference to discuss
           the audit. The Project Manager for the audit is Dr. Ping Sun. If you have
           questions, please call Rebecca Leng, Deputy Assistant Inspector General for
           Information Technology and Computer Security, or Ed Densmore, Program
           Director at (202) 366-1496.

           cc: Chief Information Officer, DOT
               Martin Gertel, M-1
               Debra Steward, RAD-20
